No.

IN THE
SUPREME COURT OF THE UNITED STATES

a/-ap-a7tf
Lee Charles Millsan - PETITIONER
(Your Name)
Vs.
Dexter Pavne - RESPONDENT(S)
PROOF OF SERVICE
I, Lee Charles Millsap. do swear or declare that on this date,
Cj/l
20&1, as required by Supreme Court Rule 29,1 have served the enclosed MOTION FOR
LEAVE TO PROCEED IN FORMA PAUPERIS and PETITION counsel, and on every other
person required to be served, by depositing an envelope containing the above documents in the
United States mail properly addressed to each of them and with first-class postage prepaid, or by
delivery to a third-party commercial carrier for delivery within 3 calendar days.
The names and address of those served are as follows:

\AJflli&m K- SiYa=^
Okie l»si we
\f0
M3
I declare under penalty of perjury that the foregoing is true and correct.
Executed on

/VWd as.

, 20^1.
(Signature)

9

